 Management Advisory Report



Single Audit of the State of
Colorado for the Fiscal Year
   Ended June 30, 2011




    A-77-13-00008 | April 2013
Single Audit of the State of Colorado for the Fiscal Year Ended
June 30, 2011
A-77-13-00008
April 2013                                                               Office of Audit Report Summary

Objective                                 Findings

To report internal control weaknesses,    The single audit reported that CDHS did not maintain
noncompliance issues, and                 documentation of personnel activity to support actual time spent on
unallowable costs identified in the       each Federal program, including SSA’s disability programs.
single audit to the Social Security
Administration (SSA) for resolution       Recommendations
action.
                                          SSA should ensure CDHS developed adequate procedures to
Background                                document personnel costs charged to its programs.

The Colorado State Auditor conducted
the single audit of the State of
Colorado. SSA is responsible for
resolving single audit findings related
to its Disability Insurance program.
The Colorado Department of Human
Services (CDHS) is the Colorado
Disability Determination Services’
parent agency.
MEMORANDUM
Date:      April 2, 2013                                                     Refer To:

To:        Gary S. Hatcher
           Senior Advisor
           Records Management and Audit Liaison Staff
From:      Inspector General
Subject:   Single Audit of the State of Colorado for the Fiscal Year Ended June 30, 2011 (A-77-13-00008)

           This report presents the Social Security Administration’s (SSA) portion of the single audit of the
           State of Colorado for the Fiscal Year ended June 30, 2011. 1 Our objective was to report internal
           control weaknesses, noncompliance issues, and unallowable costs identified in the single audit to
           SSA for resolution action.

           The Colorado State Auditor conducted the audit. The results of the desk review conducted by
           the Department of Health and Human Services (HHS) concluded that the audit met Federal
           requirements. In reporting the results of the single audit, we relied entirely on the internal
           control and compliance work performed by the Colorado State Auditor and the reviews
           performed by HHS. We conducted our review in accordance with the Council of the Inspectors
           General on Integrity and Efficiency’s Quality Standards for Inspection and Evaluation.

           For single audit purposes, the Office of Management and Budget assigns Federal programs a
           Catalog of Federal Domestic Assistance (CFDA) number. SSA’s Disability Insurance (DI) and
           Supplemental Security Income (SSI) programs are identified by CFDA number 96. SSA is
           responsible for resolving single audit findings reported under this CFDA number.

           The Colorado Disability Determination Services (DDS) performs disability determinations under
           SSA’s DI and SSI programs in accordance with Federal regulations. The DDS is reimbursed for
           100 percent of allowable costs. The Colorado Department of Human Services (CDHS) is the
           Colorado DDS’ parent agency.




           1
            State of Colorado, Statewide Single Audit, Fiscal Year Ended June 30, 2011.
           http://www.leg.state.co.us/OSA/coauditor1.nsf/All/6619DBA47E626C00872579A3006BB7A2/$FILE/2148%20FI
           NAL%20Statewide%20Single%202011.pdf (last viewed March 11, 2013).
Page 2 - Gary S. Hatcher

The single audit reported that CDHS did not maintain documentation of personnel activity to
support actual time spent on each Federal program, including SSA’s disability programs. 2 The
corrective action plan indicates CDHS will develop procedures to document personnel costs
charged to Federal programs.

We recommend that SSA ensure CDHS developed adequate procedures to document personnel
costs charged to its disability programs.

The single audit also disclosed the following findings that may affect DDS operations although
they were not specifically identified to SSA. I am bringing these matters to your attention as
they represent potentially serious service delivery and financial control problems for the Agency.

•      The Department of Personnel & Administration and the Governor’s Office of Information
       Technology did not implement adequate controls related to access management, system
       hardening, and disaster recovery for the timekeeping and leave tracking system. 3

•      CDHS did not have adequate controls over purchasing cards. 4

Please send copies of the final Audit Clearance Document to Shannon Agee. If you have
questions, contact Shannon Agee at (877) 405-7694, extension 18802.




                                                Patrick P. O’Carroll, Jr.

Attachment

cc:
Lynn Bernstein




2
    Id. at Finding 45.
3
    Id. at Finding 3.
4
    Id. at Finding 8.
                                           MISSION
By conducting independent and objective audits, evaluations, and investigations, the Office of
the Inspector General (OIG) inspires public confidence in the integrity and security of the Social
Security Administration’s (SSA) programs and operations and protects them against fraud,
waste, and abuse. We provide timely, useful, and reliable information and advice to
Administration officials, Congress, and the public.


                                   CONNECT WITH US
The OIG Website (http://oig.ssa.gov/) gives you access to a wealth of information about OIG.
On our Website, you can report fraud as well as find the following.
   •   OIG news                                  In addition, we provide these avenues of
   •   audit reports
                                                 communication through our social media
                                                 channels.
   •   investigative summaries
   •   Semiannual Reports to Congress                Watch us on YouTube
   •   fraud advisories                              Like us on Facebook
   •   press releases
                                                     Follow us on Twitter
   •   congressional testimony
   •   an interactive blog, “Beyond The              Subscribe to our RSS feeds or email updates
       Numbers” where we welcome your
       comments


                          OBTAIN COPIES OF AUDIT REPORTS
To obtain copies of our reports, visit our Website at http://oig.ssa.gov/audits-and-
investigations/audit-reports/all. For notification of newly released reports, sign up for e-updates
at http://oig.ssa.gov/e-updates.


                          REPORT FRAUD, WASTE, AND ABUSE
To report fraud, waste, and abuse, contact the Office of the Inspector General via
   Website:        http://oig.ssa.gov/report-fraud-waste-or-abuse
   Mail:           Social Security Fraud Hotline
                   P.O. Box 17785
                   Baltimore, Maryland 21235
   FAX:            410-597-0118
   Telephone:      1-800-269-0271 from 10:00 a.m. to 4:00 p.m. Eastern Standard Time
   TTY:            1-866-501-2101 for the deaf or hard of hearing
